U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

October 2, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Stuart A. Mckeever v. William P. Barr, Attorney General,
S.CtNo. 19-307

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September 5,
2019, and placed on the docket on September 5, 2019. The government's response is due on
October 7, 2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including November 6, 2019, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0307
MCKEEVER, STUART A.
WILLIAM P. BARR, ATTORNEY GENERAL

ROMAN MARTiNEZ
LATHAM & WATKINS LLP
555 ELEVENTH STREET, NW
WASHINGTON, DC 20004
202-637-3377
ROMAN.MARTINEZ@LW.COM
ASH WIN PHATAK
CONSTITUTIONAL ACCOUNTABILITY
CENTER
1200 18TH ST., NW
SUITE 501
WASHINGTON, DC 20036
202-296-6889
ASHWIN@THEUSCONSTITUTION.ORG

